                            Department of the Interior
                            Office of Inspector General




             AUDIT REPORT




            U.S. Fish and Wildlife Service
         Wildlife and Sport Fish Restoration
          Program Grants Awarded to the
              State of North Carolina,
           Wildlife Resources Commission,
       From July 1, 2005 Through June 30, 2007




Report No. R-GR-FWS-0007-2008          December 2008
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                               December 1, 2008

                                     AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:   for Christina M. Bruner
           Regional Manager, Eastern Region

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of North Carolina, Wildlife Resources Commission,
           From July 1, 2005 Through June 30, 2007 (No. R-GR-FWS-0007-2008)

       This report presents the results of our audit of costs incurred by the State of North
Carolina (State), Wildlife Resources Commission (Commission), under grants awarded by the
U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife
and Sport Fish Restoration Program (the Program). The audit included claims totaling
approximately $31.8 million on 37 grants that were open during State fiscal years (SFYs) ended
June 30 of 2006 and 2007 (see Appendix 1). The audit also covered Commission compliance
with applicable laws, regulations, and FWS guidelines, including those related to the collection
and use of hunting and fishing license revenues and the reporting of program income.

       We found that the Commission complied, in general, with applicable grant accounting
and regulatory requirements. However, we identified problems with the in-kind (non-cash)
contributions the Commission claimed. We also found that the Commission had incomplete real
property records and had understated fixed asset property accounts.

      We provided a draft report to FWS and the Commission for a response. We summarized
the Commission and FWS Region 4 responses after each recommendation, as well as our
comments on the responses. We list the status of each recommendation in Appendix 3.

      Please respond in writing to the findings and recommendations included in this report by
March 2, 2009. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader, Tom
Nadsady, or me at 703–487–5345.

cc:     Regional Director, Region 4, U.S. Fish and Wildlife Service
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Commission:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $31.8 million on the 37 grants that were
open during SFYs 2006 and 2007 ended June 30, 2007 (see Appendix 1). We report only on
those conditions that existed during this audit period. We performed our audit at Commission
headquarter in Raleigh, NC, and visited three boating access maintenance depots, four
gamelands, three gamelands maintenance depots, three boating access sites, a fish hatchery, a
hunter education warehouse, and a wildlife education center (see Appendix 2). We performed
this audit to supplement, not replace, the audits required by the Single Audit Act Amendment of
1996 and by Office of Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          2
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Commission;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Commission employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Commission used hunting and fishing license revenues solely
       for administration of the Commission; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Commission operations.

Prior Audit Coverage
On March 31, 2005 we issued “U.S. Fish and Wildlife Service Federal Assistance Grants
Administered by the North Carolina, Wildlife Resources Commission, from July 1, 2001 to
June 30, 2003” (Report No. R-GR-FWS-0004-2004). We followed up on all recommendations
in the report and found that all of them had been resolved and implemented.

We reviewed North Carolina’s Comprehensive Annual Financial Reports for SFYs 2006 and
2007 and Single Audit Reports for SFYs 2005 and 2006. None of these reports contained any
findings that would directly impact the Commission’s Program grants or programs under the
grants.



                                                 3
                                   Results of Audit
Audit Summary
We found that the Commission complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below. We discuss the findings in more detail in
the Findings and Recommendations section.

       Questionable In-Kind Contributions Claimed. The Commission overstated the
       amount of in-kind contributions it received as the State matching share of grant costs on
       its Aquatic Education and Hunter Education grants.

       Inadequate Land Records. The Commission did not reconcile its land records with the
       FWS records. We identified discrepancies between the two sets of records, which
       document land purchased with Program funds.

       Improperly Recorded and Understated Assets. The Commission improperly coded
       purchases for assets worth over $2 million in its accounting system and omitted the assets
       from its fixed asset system.

Findings and Recommendations
A.     Questionable In-Kind Contributions Claimed

       Under the Program, States must use “State matching” (non-federal) funds to cover at least
       25 percent of costs incurred in performing projects under the grants. The State’s
       matching share of costs for Grants F-35-18 and F-35-19, which were for aquatic
       education, and Grants W-1-35 and W-1-36, which were for hunter education, was
       partially composed of non-cash (“in-kind”) contributions provided by volunteer workers.
       States may use the value of such third-party contributions to meet the matching
       requirement, but they must follow various requirements in doing so. We identified
       multiple problems—such as lack of support and certain unallowable costs—with a
       portion of the in-kind contributions reported for each of these grants.

       States must follow a number of requirements when claiming in-kind contributions. As
       described in table 1 below, the Code of Federal Regulations (C.F.R.) provides the general
       documentation requirements for in-kind contributions. It also provides guidance on
       calculating the value of the contributions. State regulations and policies and FWS
       guidance provide further clarification.




                                                4
  Governing Rules for
 In-Kind Contributions       Source of Criteria                             Description
Must be adequately        2 C.F.R. 225.55 C.1.j           Grantee must maintain adequate documentation.
documented.
                          43 C.F.R. 12.64(b)(6)           Grantee must maintain records that show how it
                                                          determined the value of the contributions claimed.

Allowable if they would   43 C.F.R. 12.64(b)(7)(i)        Third party in-kind contributions count toward
also be allowable as                                      satisfying a matching requirement only when, if the
cash payments.                                            party receiving the contributions were to pay for
                                                          them, the payments would be allowable costs.

                          State Travel Policies           State travel policies apply because the Commission
                          (“Travel Policies and           claimed volunteer travel costs as in-kind
                          Regulations” in the State       contributions. These policies allow reimbursement
                          Budget Manual)                  for meals for official overnight travel. The
                                                          destination must be at least 35 miles from the
                                                          employee’s regularly assigned duty station or home.
                                                          Employees traveling over 35 miles who do not stay
                                                          overnight may be reimbursed for breakfast if they
                                                          depart their duty station before 6:00 a.m. and extend
                                                          the workday by 2 hours. They may be reimbursed
                                                          for dinner if they return to their duty station after
                                                          8:00 p.m. and extend the workday by 3 hours.

For Hunter Education      Chapter 4, FWS Hunter           Volunteer instructors should document their hunter
grants, certain           Education Guide                 education activity on a signed and dated time/course
certification                                             report form.
requirements apply
(signatures and use of    Commission Hunter               The lead instructor and District Hunter Education
specific forms).          Education Program               Specialist will sign the Instructor Cover Sheet after
                          Procedure Manual                they have reviewed it for accuracy and
                                                          completeness. Instructor Cover Sheets, similar to
                                                          timesheets, detail the volunteer hours, mileage, and
                                                          meals contributed to the Hunter Education Program.
                                                          The Commission bases its calculation of in-kind
                                                          contributions related to Grants W-1-35 and W-1-36
                                                          upon those documents.


                  Table 1. Summary of Requirements for Claiming In-Kind Contributions

    The Commission determined the value of in-kind hours donated by multiplying the hours
    worked by various hourly rates. For Hunter Education grants, the Commission also
    claimed as in-kind contributions costs for mileage and meals reported by the volunteers.
    We tested the in-kind contributions by reviewing the supporting documentation for four
    months of in-kind contributions claimed for both the Aquatic Education and Hunter
    Education grants.




                                                      5
Aquatic Education

For the two Aquatic Education grants, the State received volunteer services from two
groups of individuals: “regular volunteers,” who offered their own time to assist the
Commission, and “community service volunteers,” who performed court-ordered
volunteer work. We identified numerous problems with the in-kind contributions
received from both groups.

Unsupported and incorrect labor rates. The Commission could not provide the support
used to determine hourly labor rates associated with labor codes charged by regular
volunteers. Some of these labor codes are now defunct, and the Commission did not
have documentation on the work activities associated with them. Furthermore, there has
been turnover in the volunteer coordinator position so the “corporate knowledge” on
these codes is lost. We therefore determined the entire in-kind value contributed by
regular volunteers in SFYs 2006 and 2007 is an ineligible in-kind cost.

The Commission also used an incorrect labor rate to calculate the value of community
service volunteers’ in-kind contributions on these grants. It applied a rate of $10 per hour
to certain volunteer activities, even though the Commission’s documentation supported a
rate of only $5.15 per hour.

Inaccurate hours. The number of volunteer hours notated in monthly summary reports
submitted to the Commission’s Federal Funds Accountant did not consistently reconcile
with community service volunteers’ time sheets in three of the four months we reviewed.

Based on these observations regarding both labor rates and the accuracy of hours
reported, we determined that $43,225, or 100 percent of the regular volunteers’ in-kind
contributions on the two Aquatic Education grants were not supported. Concerning the
community service volunteers’ contributions, $1,877 of the $4,087 that we reviewed
(46 percent) were not supported.

Hunter Education

We noted three major issues with the two Hunter Education grants.

Inadequate Supervisory Review of Hours. We found that Commission staff did not
ensure Instructor Cover Sheets in our sample were consistently signed by lead instructors
and/or District Hunter Education Specialists to indicate completeness and accuracy.

Database Errors. Hours and miles were at times inaccurately inputted in the
Commission’s electronic database, causing the value of these in-kind contributions to be
overstated.

We reviewed $16,657 of the in-kind contributions claimed on Hunter Education grants.
As a result of the errors identified, we determined that $3,890 (23 percent) were not
supported.


                                         6
Unallowable Costs. The Commission claimed meals paid by volunteers as part of its
in-kind match on these grants. However, State employees traveling under similar
circumstances may not be reimbursed for meals (see Table 1 above for criteria).
Therefore, we determined that $9,528, the full amount of meals claimed on these two
grants (not just the amount in our sample), were ineligible in-kind costs.

We determined that there was no monetary impact on the grants, because the
Commission accumulated excess matching cash outlays on the grants. However, the
State overstated in-kind contributions by at least $58,520. Overstating in-kind
contributions claimed as the State matching share of costs could lead the Commission to
be reimbursed more than it should be under the grants. Therefore, addressing the
deficiencies concerning the rates used to value the in-kind contributions claimed,
accuracy of hours reported, supervisory review of those hours, and types of costs charged
will help ensure the appropriate use of federal funds for the Commission’s Aquatic
Education and Hunter Education Programs in the future.

Recommendations

We recommend that FWS:

1. require the Commission to maintain records supporting the labor rates used to
   calculate the value of in-kind contributions for the Aquatic Education grants and to
   use rates supported in their documentation,

2. require the Commission to ensure the hours recorded on monthly summary reports
   reconcile with the hours reported on volunteer time sheets for that month,

3. ensure the Commission enforces its policies and procedures requiring lead instructors
   and District Hunter Education Specialists to certify the hours worked and mileage
   contributed by volunteers on the Hunter Education program, and

4. ensure the Commission follows the C.F.R. and State travel policies to determine
   eligible in-kind costs on future Hunter Education grants.

Commission Response

The Commission stated that they are unsure about the differences in unsupported
amounts between those originally discussed with them and the amounts identified in the
draft report. The Commission also stated that they agreed with the finding as it was
originally written, but since they did not receive any additional documentation to support
the finding as presented in the draft report they could not say whether or not they agreed.
As a result, the Commission could “not take appropriate action to ensure there are no
future findings with possible questioned costs.”




                                         7
     FWS Response

     FWS management concurred with the recommendations.

     OIG Comments

     We do not believe the revised amounts affect the finding since there was no monetary
     impact on the grants. In addition to the information provided in the response to the draft
     report, the Commission needs to submit a corrective action plan. The corrective action
     plan should include:

        •   actions taken, if any, to address enforcement of its policies and procedures to
            ensure costs are adequately documented and allowable;

        •   targeted completion dates for those actions;

        •   titles of officials responsible; and

        •   verification that FWS headquarters officials reviewed and approved of all actions
            taken or planned by the Commission.

B.   Inadequate Land Records

     Federal Regulations (50 C.F.R. § 80.19) require each State to maintain complete property
     records and to follow the records requirements in the Federal Aid Manual and OMB
     Circular A–102. Under 50 C.F.R. § 80.18(c), the Commission is responsible for
     controlling all assets and assuring they serve the purpose for which acquired.
     The Commission relies on the North Carolina Department of Administration, State
     Property Office (SPO), to handle all real estate purchases and official record keeping.
     The Commission also maintains supporting documentation—such as land acquisition
     maps, deeds, appraisals, and accounting transactions—for land purchases. To determine
     whether the Commission has adequate controls over federally-purchased land, we
     compared land records contained in a FWS database to those maintained by SPO and the
     Commission. We identified discrepancies among the lists.

     FWS records show a total of 16 FWS-funded land grants to the Commission. The
     Commission had adequate documentation that matched FWS records for two relatively
     recent acquisitions: land purchased under Grant W-60 in 2003 and under Grant W-49 in
     2007. However, there were fewer Commission records for the other 14 FWS-funded land
     acquisitions from 1941 to the 1990s. We found that these 14 acquisitions did not identify
     a source of funding in either Commission or SPO records. In addition, the Commission’s
     records show land purchased under Grant W-58-L-1 is owned by the FWS Roanoke
     Refuge, land shown as purchased under Grant F-9-L-1 in FWS records does not appear
     in Commission or SPO records, and the acres recorded in FWS records for land
     purchased under Grant W-4-L-1 acreages does not match acres recorded in Commission
     or SPO records.

                                               8
     A Commission official stated that federal ownership for the 13 land acquisitions (14 less
     land purchased under W-58-L-1, which is owned by the FWS) is not shown in
     Commission records because the hard copy files were lost. Without accurate records, the
     Commission cannot ensure that it maintains control of land purchased with Program grant
     funds and that such land is not used for unallowable purposes.

     Recommendations

     The FWS should work with the Commission to:

     1. ensure the funding source of the lands are properly recorded in the SPO and in the
        Commission’s electronic and hard copy files and

     2. reconcile its land records with the with FWS records.

     Commission Response

     The Commission did not respond to the recommendations.

     FWS Response

     FWS management concurred with the recommendations.

     OIG Comments

     The Commission did not respond to the recommendations. The Commission needs to
     submit a corrective action plan. The corrective action plan should include:

        •   actions taken, if any, to address the funding source of lands and reconciliation of
            its land records with FWS;

        •   targeted completion dates for those actions;

        •   titles of officials responsible; and

        •   verification that FWS headquarters officials reviewed and approved of all actions
            taken or planned by the Commission.

C.   Improperly Recorded and Understated Assets

     The Commission accounts for property by maintaining an inventory in its fixed asset
     system. Purchases of property should be recorded in the fixed asset system. The
     Commission spent $1,538,269 in license funds to pay for exhibits for the Outer Banks
     Wildlife Education Center ($883,582) and the Centennial Wildlife Center ($654,687).
     The Commission considers these exhibits as personal property. The exhibits therefore



                                               9
should have been, but were not, included in the fixed asset system’s inventory of personal
property (specifically, office equipment).

In addition, the State expended license revenue for cabinets for the Outer Banks Wildlife
Education Center. The Commission considers these cabinets as part of the building’s
structure. The Commission should have included them in the total building cost in the
fixed asset system and capitalized them as an asset in the accounting system, but did not.
Under 2 C.F.R. § 225.15(a), capital expenditures specifically include expenditures to
increase the value or useful life for equipment, buildings, and land.

The Commission also follows the North Carolina Department of Administration Internal
Operating Policies number “Fiscal 002” accounting for fixed assets. Although the policy
provides general guidance on fixed assets, it leaves the final determination of how to
classify and treat assets to departmental discretion. This policy suggests that “fixed
assets historically valued between $500 and $4,999.99 are recorded in the fixed asset
system for inventory purposes” and that “assets historically valued at $5,000 and above
shall be capitalized.”

A Commission official stated the expenditures were incorrectly recorded as described
above due to a coding error that showed the amounts as contract services in the
accounting system. The coding error allowed the expenditures to bypass the fixed asset
manager, who otherwise would have corrected the mistake. Consequently, the fixed asset
inventory was understated by $1,538,269 for the omitted exhibits and the fixed asset
system’s building capital account was understated by $570,246.

Recommendations

The FWS should work with the Commission to:

1. ensure the Commission updates the statements of assets in the fixed asset accounts
   and inventory to include the missing items and

2. provide training to Commission personnel on established procedures that control
   project cost coding.

Commission Response

The Commission did not respond to the recommendations.

FWS Response

FWS management concurred with the recommendations.




                                        10
OIG Comments

The Commission did not respond to the recommendations. The Commission needs to
submit a corrective action plan. The corrective action plan should include:

   •   actions taken, if any, to address the updating of the statements and training to
       staff;

   •   targeted completion dates for those actions;

   •   titles of officials responsible; and

   •   verification that FWS headquarters officials reviewed and approved of all actions
       taken or planned by the Commission.




                                          11
                                              Appendix 1
                                                Page 1 of 2


        STATE OF NORTH CAROLINA
     WILDLIFE RESOURCES COMMISSION
 FINANCIAL SUMMARY OF REVIEW COVERAGE
    JULY 1, 2005 THROUGH JUNE 30, 2007

Grant Number   Grant Amount   Claimed Costs
  F-22-30        $535,000       $486,291
  F-22-31         599,000        624,214
  F-23-30         306,000        340,967
  F-23-31         509,000        533,077
  F-24-30         467,000        498,740
  F-24-31         569,000        577,068
  F-26-21         987,496        971,915
  F-26-22       2,111,691      2,040,535
  F-35-18         708,769        857,116
  F-35-19         734,104        834,940
  F-58-10         583,000        415,097
  F-58-11          71,000         60,999
  F-63-10         380,000        441,968
  F-63-11         460,000        463,827
  F-65-9          570,550        507,753
  F-65-10         286,000        357,879
  F-68-7          147,672        147,672
  F-68-8          275,757        228,114
  F-76-5           82,500         83,391
  F-76-6           82,500        100,331
  F-82-D-1      2,666,667      3,270,290
  F-85-1          184,000        195,852
  F-86-CR-1       127,000         68,307
  F-87-E-1        160,000        216,392
  F-89-B-1        202,000        200,695
  W-1-35        1,531,104      1,554,173
  W-1-36        1,352,481      1,553,273




                  12
                                                Appendix 1
                                                  Page 2 of 2


        STATE OF NORTH CAROLINA
     WILDLIFE RESOURCES COMMISSION
 FINANCIAL SUMMARY OF REVIEW COVERAGE
    JULY 1, 2005 THROUGH JUNE 30, 2007

Grant Number    Grant Amount    Claimed Costs
  W-49--L2         472,000         459,922
  W-57-31        5,000,000       5,796,868
  W-57-32        5,600,000       6,246,438
  W-59-1           607,500          40,500
  W-60-1           501,071          35,847
  W-61-5           320,000         462,367
  W-61-6           320,000         526,938
  W-62-1           417,920          71,006
  W-63-1           400,000          88,207
  W-65-1           744,153         425,997
  TOTAL        $31,071,935     $31,784,966




                  13
                                           Appendix 2


   STATE OF NORTH CAROLINA
WILDLIFE RESOURCES COMMISSION
         SITES VISITED

             Headquarters
               Raleigh

         Boating Access Depots
              Chinquapin
                Hertford
                Weldon

         Gamelands and Depots
          Angola Bay Gameland
Butner-Falls of Neuse Gameland and Depot
  South Mountain Gameland and Depot
  Suggs Mill Pond Gameland and Depot

         Boating Access Areas
              Gunpowder
              Johns River
           Sawpit Landing

                Other
     Hunter Education Warehouse
 Outer Banks Wildlife Education Center
         Watha Fish Hatchery




                  14
                                                                                 Appendix 3


                            STATE OF NORTH CAROLINA
                         WILDLIFE RESOURCES COMMISSION
               STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

 Recommendation                      Status                        Action Required
A.1, A.2, A.3, A.4,     FWS management concurs          Additional information is needed in
B.1, B.2, C.1 and C.2   with the recommendations, but   the corrective action plan, including
                        additional information is       the actions taken or planned to
                        needed, as outlined in the      implement the recommendations,
                        “Action Required” column        targeted completion date(s), the title
                                                        of official(s) responsible for
                                                        implementation, and verification that
                                                        FWS Headquarters officials
                                                        reviewed the actions taken or
                                                        planned by the State. We will refer
                                                        recommendations not resolved and
                                                        /or implemented after 90 days (after
                                                        March 2, 2009) to the Assistant
                                                        Secretary for Policy, Management
                                                        and Budget for resolution and/or
                                                        tracking of implementation.




                                         15
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
